        Office of Inspector General

        Final Report




EPA Region III’s Management
of Tranguch Gasoline Site,
Hazleton, Pennsylvania




Report No. 2001-P-00015       August 29, 2001
Region Covered:                          Region III


Program Office Involved:                 Hazardous Site Cleanup Division


Resource Center                          Mid-Atlantic Division,

Conducting the Audit:                    Philadelphia, PA



Contributors:                            Mark S. Phillips (Team Leader)

                                         Michelle Brown

                                         Kevin S. Good

                                         Stephen R. Schanamann, CIH





Abbreviations

EPA:       U.S. Environmental Protection Agency

OIG:       Office of Inspector General

PADOH:     Pennsylvania Department of Health
              UNITED STATES ENVIRONMENTAL PROTECTION AGENCY

                        OFFICE OF INSPECTOR GENERAL

                             MID-ATLANTIC DIVISION

                                 1650 Arch Street

                       Philadelphia, Pennsylvania 19103-2029

                                   (215) 814-5800





                                  August 29, 2001

MEMORANDUM

SUBJECT:	 Final Report:
          EPA Region III’s Management of Tranguch Gasoline Site,
          Hazleton, Pennsylvania
          Report Number 2001-P-00015

FROM:        Carl A. Jannetti
             Divisional Inspector General for Audit
             Mid-Atlantic Division (3AI00)

TO:	         Thomas C. Voltaggio
             Deputy Regional Administrator
             Region III (3RA00)


In December 2000, the Environmental Protection Agency’s (EPA’s) Office of
Inspector General (OIG) received a Hotline complaint alleging Region III’s
mismanagement of the Tranguch Gasoline Site, in Hazleton, Pennsylvania. There
were numerous issues raised, the most serious an allegation that EPA had been
untimely in addressing hazards in residents’ homes. We found that, overall,
remediation efforts taken by EPA appeared adequate and sufficient to ensure the
safety of residents. However, we concluded that EPA Region III did not adequately
communicate with the residents and Pennsylvania Department of Health, and
could make improvements in that area.

This report contains findings that describe problems the OIG has identified and
corrective actions the OIG recommends. This report represents the opinion of the
OIG. Final determinations on matters in this report will be made by EPA
managers in accordance with established EPA resolution procedures.

ACTION REQUIRED

In accordance with EPA Manual 2750, you are requested to provide a written
response to this final report by November 27, 2001. Also, please submit an
electronic copy of your response to phillips.mark@epa.gov. For corrective actions
planned but not completed by the response date, reference to specific milestone
dates will assist in deciding whether to close this review. Your response should
address all recommendations, and include milestone dates for corrective actions.

We have no objection to further release of this report to the public. If you or your
staff have any questions regarding this report, please contact me or Mark S.
Phillips at (215) 814-5800. For your convenience, this report will be available at
http://www.epa.gov/oigearth/eroom.htm.
                 Executive Summary

Background and Purpose
        We conducted this review as a result of a hotline complaint alleging
        that the Environmental Protection Agency’s (EPA’s) Region III
        mismanaged the Tranguch Gasoline Site, in Hazleton, Pennsylvania.
        EPA had become involved in the site in 1996, following preliminary
        measures taken by Pennsylvania’s Department of Environmental
        Protection after concerns arose in 1993 regarding gasoline spills
        stemming from corroded underground storage tanks. Our overall
        objective was to determine whether EPA had been timely and effective
        in addressing hazards in residents’ homes.

Results of Review
        We determined that the remediation efforts taken by EPA appeared
        sufficient to ensure the safety of residents of the Tranguch site.
        EPA took timely and effective actions to address hazards in residents’
        homes. In particular, we noted that:

        C   Homes sampled in 1996 were representative of the spill area.

        C   EPA’s decisions on taking remediation were sufficient.

        C   A federal buyout of residents’ homes was not warranted.

        However, we found that EPA should have communicated better with
        residents and the Pennsylvania Department of Health. EPA’s poor
        communication resulted in many residents not trusting EPA, and EPA
        may have overcompensated by taking extra actions that may not have
        been needed. These actions may result in as much as $2.8 million in
        unnecessary costs.

Recommendations
        We recommend that the Region III Administrator, to ensure better
        communication with the public at future sites, provide additional
        training to appropriate EPA personnel on risk communication, and
        develop a risk communication reference guide.



                                     i
                                                         Report No. 2001-P-00015
Region III Response and OIG Comment
        Region III officials stated they were pleased with the overall OIG
        conclusion that the Region’s remediation efforts were sufficient to
        ensure the safety of residents. The Region acknowledged that their
        early communication efforts with residents were insufficient, and has
        taken a number of steps in the past six months, subsequent to our
        initial comments, to improve communication. Region III agreed to
        increase training on risk communication and to develop a risk
        communication reference guide. We consider those actions
        appropriate, pending our review of the reference guide that is
        developed.




                                    ii
                                                        Report No. 2001-P-00015
                                   Table of Contents

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             i



Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


         Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1

         Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1

         Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                2



Remediation Efforts for Homes Found to Be Sufficient . . . . . . . . . . . . . . . 5


         Homes Sampled in 1996 Representative of Spill Area . . . . . . . . . . . .                                   6

         EPA Decisions on Remediation Actions Sufficient . . . . . . . . . . . . . . .                                7

         Federal Buyout Not Warranted . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     8

         EPA Should Have Communicated Better . . . . . . . . . . . . . . . . . . . . . .                              9

         Unnecessary Remediation Actions May Have Been Taken . . . . . . . .                                         11

         Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           12

         Region III Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           12

         OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          13


Other Matters . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


         No Inappropriate EPA Discharge Into Sewer System . . . . . . . . . . . .                                    15

         “Point-in-Time” Test Sampling Was Appropriate . . . . . . . . . . . . . . . .                               15

         State Provided With Enough EPA Information . . . . . . . . . . . . . . . . .                                15

         Response to Odor Complaints Was Appropriate . . . . . . . . . . . . . . . . .                               16

         “Tranguch” Was Not a Misleading Name for Cleanup Site . . . . . . . .                                       16

         Other Responsible Parties Pursued . . . . . . . . . . . . . . . . . . . . . . . . . . .                     17


Appendix 1 - Region III Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


Appendix 2 - Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

                           Introduction

Purpose
          In December 2000, the Environmental Protection Agency’s (EPA’s)
          Office of Inspector General (OIG) received a Hotline complaint alleging
          EPA Region III mismanagement of the Tranguch Gasoline Site, in
          Hazleton, Pennsylvania. The overall objective of our review was to
          determine whether EPA had been timely and effective in addressing
          hazards in residents’ homes. While we looked into all allegations
          raised, this report focuses on the following allegations we considered
          most serious:

          C   Homes sampled in 1996 were not representative of the spill area.

          C   EPA’s decisions on taking remediation were inappropriate.

          C   A federal buyout of residents’ homes was warranted.

          C	 EPA should have communicated better with residents and the
             Pennsylvania Department of Health (PADOH).

Background
          Between September 1993 and January 1994, a gasoline spill stemming
          from corroded underground storage tanks at the Tranguch Tire and
          Auto Service Center, as well as from four other nearby businesses,
          caused major concern for residents in the area. Evacuation of several
          homes in this Laurel Gardens neighborhood occurred due to gasoline
          vapors. The vapors entered homes largely through the sanitary sewer
          system. During this time period, the Pennsylvania Department of
          Environmental Protection installed ventilation systems in 13 of the
          affected homes.

          The main chemical of concern was benzene, which is a component of
          gasoline and a known human carcinogen. Benzene is a colorless to
          light-yellow liquid with an aromatic odor, noticeable when
          concentrations are in the low parts per million range.




                                      1

                                                          Report No. 2001-P-00015
        In March 1996, EPA took responsibility for the site at the request of
        the Pennsylvania Department of Environmental Protection. Visible
        petroleum sheen was observed by EPA’s On-Scene Coordinator in the
        Black Creek, which is in the remediation area. Consequently, EPA
        obtained Coast Guard funding from the Oil Spill Liability Trust Fund
        of the Oil Pollution Act of 1990 to conduct an extensive contamination
        study, and began efforts to remove the gasoline from the subsurface.
        These Coast Guard funds were sought because problems related to
        petroleum are not covered by Superfund.

        Because the residential vapor problem was believed to have been
        controlled and stabilized, EPA sought to follow the Oil Pollution Act
        mandate of protecting surface waters. Also, EPA collected subsurface
        data and evaluated cleanup options, which resulted in the installation
        of a Soil Vapor Extraction System at the Tranguch property in 1999.

        In the Summer of 2000, a group of residents requested sampling, and
        benzene was detected in several homes at levels representing a
        concern for chronic exposure. At the time EPA was following an action
        level for benzene contamination of 32 Fg/m3 (micrograms per cubic
        meter), which was PADOH’s action level. When testing at homes
        yielded some results above that action level, EPA began taking steps to
        make those homes safe.

        The total estimated Tranguch project cost was $26 million.

Scope and Methodology
        This review was conducted by OIG in response to a Hotline complaint
        alleging Region III’s mismanagement of the Tranguch Gasoline Site.
        Subsequently, we met with the complainant, a local citizens’ group
        (Group Against Gas), and staffers for Pennsylvania’s two U.S.
        Senators, and arrived at numerous issues that we should review. This
        report presents our conclusions on what we considered the major
        issues. We had numerous interviews, including with: Region III
        Removal managers, a Senior PADOH representative, Region III Office
        of Regional Counsel personnel, various On-Scene Coordinators,
        Greater Hazleton Sewer Authority personnel, Pennsylvania
        Department of Environmental Protection personnel, EPA contractors,
        and residents.

        We collected various documents from the initial complainant and
        Group Against Gas members. We reviewed the National Contingency

                                    2
                                                        Report No. 2001-P-00015
Plan and the Oil Pollution Act. In addition, we reviewed Region III’s
Tranguch site files, Pollution Reports, site maps, an EPA Tranguch
web site, a Group Against Gas web site, and lab results. We
participated in a site tour.

We addressed each of the issues by:

C   Reviewing the source documentation.

C	 Interviewing parties/officials most knowledgeable about the
   concern, to compile all of the facts.

C	 Determining whether the concern had any merit or was based on
   miscommunication or misunderstanding between parties involved.

An OIG Environmental Scientist was a member of the review team to
provide assistance with all technical issues.

We performed our review in accordance with the Government Auditing
Standards (1994 revision), issued by the Comptroller General of the
United States. However, we did not follow all of the elements of the
planning standards in Chapter 6, because our review emphasis was on
evaluating EPA’s actions in regard to issues raised by the
complainant, local citizens, and staffers for Pennsylvania’s two U.S.
Senators.

We began our field work on January 4, 2001, and concluded it on
May 30, 2001. We issued our draft report to Region III on July 12,
2001. In addition, we briefed Group Against Gas members on the
draft report on August 2, 2001. The group’s members involved in the
briefing said they basically agreed with our findings. We had also
offered to brief the complainant and staffers for Pennsylvania’s two
U.S. Senators, but they declined. Region III responded to the draft
report on August 14, 2001. The Region generally agreed with our
findings. We include all of Region III’s response as Appendix 1 to this
report. We made changes in the report as a result of those comments
whenever deemed appropriate. We had an exit conference with Region
III on August 27, 2001.




                            3

                                                Report No. 2001-P-00015
Remediation Efforts for Homes

   Found to Be Sufficient

 The remediation efforts taken by EPA appeared sufficient to ensure
 the safety of residents of the Tranguch site. EPA took timely and
 effective action to address hazards in residents’ homes. Homes
 sampled were representative of the spill area, remediation decisions
 were sufficient, and a federal buyout was not warranted. However, we
 found that EPA did not adequately communicate with the residents
 and PADOH. EPA’s poor communication resulted in many residents
 not trusting EPA, and EPA may have overcompensated by taking
 extra actions that may not have been needed. These actions may
 result in as much as $2.8 million in unnecessary costs.


 Our review of actions taken by EPA since taking over the Tranguch
 site in 1996 indicated that EPA took timely and effective actions. Of
 the 362 homes considered part of the site, EPA sampled 53 homes in
 August 1996, shortly after becoming responsible for the site. EPA
 determined that the benzene levels for 52 of the 53 homes sampled
 were below EPA’s standard removal action level of 21.5 mg/m3, which
 was below the Pennsylvania level of 32 mg/m3 at that time. (The 53rd
 home, while above 21.5 mg/m3, was below 32 mg/m3.) Based on those
 results, EPA did not think remediation in the homes was necessary.
 EPA then took monitoring actions to keep track of the groundwater
 pollution levels, installed a Soil Vapor Extraction Unit to remove
 benzene from the ground, and took cleanup action at Black Creek.

 In addition to the initial testings in August 1996, EPA did retests at
 30 of the 53 homes in November-December 1996. However, we noted
 that the sampling instrument used for the second set of tests was not
 capable of measuring down to the 32 mg/m3 action level. While such an
 instrument is useful at other sites, it was not of use in this instance,
 and the retest results were not of value. Nonetheless, we do not
 believe that diminishes the conclusion from the initial testings in the
 summer of 1996 – that remediation in the homes was unnecessary.

 Our specific reviews regarding the representativeness of samples,
 remediation decisions, the need for federal buyouts, and the adequacy
 of communication disclosed the following.


                              5

                                                  Report No. 2001-P-00015
Homes Sampled in 1996 Representative of Spill Area
        The homes sampled by EPA in 1996 were representative of the site. Of
        the 362 homes in the affected area, we concluded that the homes EPA
        chose for testing were either directly over the plume (the area of
        contamination) or in close proximity. Specifically, of the 53 homes
        chosen for testing by EPA, we researched the locations of each and
        were able to determine the precise location for 50 of the homes. Based
        on our research, we concluded that:

         12 homes were directly over the plume (out of a possible 16)

         14 homes were in very close proximity to the plume
            (the house was adjacent to but not actually within the plume)

         24 homes were within 3 blocks of the plume


        Therefore, we concluded that EPA’s sample of the 53 homes was
        representative of the site area. (See map below.)




                                           6

                                                                    Report No. 2001-P-00015
EPA Decisions on Remediation Actions Sufficient
        Benzene Levels in 1996

        We found that the benzene levels in 1996 at the Tranguch site did not
        require remediation in the homes. In 1996, the EPA action level for
        benzene during sampling was 21.5 mg/m3, and, as already noted, the
        levels were under that amount for 52 of the 53 homes sampled.
        Therefore, we considered the decision not to take remediation action in
        the homes to be appropriate.

        PADOH’s action level for benzene in 1996 of 32 mg/m3 was higher than
        EPA’s 21.5 mg/m3. However, in January 2001, PADOH recommended
        to EPA that there should be a “non-detect” level of benzene at the
        Tranguch site. When EPA indicated that was too vague, EPA and
        PADOH agreed that a “non-detect” level could be 8.3 mg/m3, since that
        was the lowest reading of benzene that could accurately be read using
        the laboratory instruments available to the Region.

        We noted that while EPA and PADOH agreed that 8.3 mg/m3 should be
        the action level for benzene for the Tranguch site, PADOH did not
        apply that level anywhere else in Pennsylvania – the action level
        remained at 32 mg/m3. While we agree that the ideal safe level for
        benzene would be zero, that is an unattainable goal because of the
        widespread presence of benzene in everyone’s daily lives. For example,
        anyone who pumps their own gasoline is exposed. Benzene is a
        solvent used in cosmetics and to clean metal parts in industrial
        settings, and there are trace amounts present in some household
        items. Moreover, national studies show that benzene can normally be
        found in homes at up to 60 mg/m3. Background levels of benzene exist
        almost universally in any home that has an attached garage with an
        automobile, gas cans, and lawn mowers.

        Based on scientific evidence, we believe that both the 21.5 and
        32 mg/m3 actions levels are extremely low levels and protective of
        human health. While having a level of 8.3 mg/m3 is desirable, we do
        not believe it is appropriate to strive for such a level, particularly
        when such a low level is not applied anywhere else in Pennsylvania or
        the United States. We researched that this level is not used
        elsewhere.




                                    7

                                                        Report No. 2001-P-00015
        Benzene Levels in 2000

        In the summer of 2000, residents expressed concerns and asked for
        testing, which was conducted. Also, EPA contracted to have sewer
        vents installed starting in September 2000. The levels of benzene
        following vent installations at 267 homes as of June 2001 were:

                                 Post-Vent Benzene Levels

            Action       No. of Homes       No. of Homes           % of Homes
            Level        Below Action     Above Action Level    Above Action Level
                             Level

          32 Fg/m3           260                   7                    2.62%

          21.5 Fg/m3         252                  15                    5.62%

          8.3 Fg/m3          202                  65                  24.34%


        Concern had been expressed that EPA initially promised remediation
        for all homes above the 8.3 mg/m3 level but, subsequently, started using
        the 8.3 mg/m3 level to only consider whether a home was a candidate
        for remediation. Specifically, if a home tested at above 8.3 mg/m3, EPA
        first would perform an inspection to determine whether anything
        within the home other than the Tranguch spill was causing the
        reading (such as gas cans, gasoline fumes from cars, paints, solvents,
        and other household goods). Only after EPA determined that the
        reading was not caused by such substances would remedial action be
        initiated. We consider such a procedure to be appropriate.

Federal Buyout Not Warranted
        The complainant and many in the Group Against Gas residents’
        organization stated they thought government officials should declare
        the neighborhood a disaster zone and issue a buyout. EPA and
        PADOH had never characterized the health concerns of chemical
        exposure at the Tranguch site as “very serious,” and have indicated
        that any potential problems can be remediated. EPA and PADOH
        agreed that there was no health-based cause for consideration of
        permanent relocation, and we determined that their positions were
        valid. It appears that residents were asking for buyouts because of an
        inaccurate perception of the risks posed by the gasoline spill.




                                     8

                                                            Report No. 2001-P-00015
EPA Should Have Communicated Better
        We found EPA did not effectively communicate with residents of the
        Tranguch site or with PADOH. We believe many of the complaints
        and the general mistrust occurred because of this poor risk
        communication.

        Communication with Residents

        To build trust, the Agency needs to involve the public and be credible.
        However, EPA did not:

        C	 Contact residents who had their homes tested in 1996 to disclose
           the results of the tests.

        C	 Effectively communicate to residents tested in particular and the
           community in general that the levels of benzene in the community
           were low and did not present health risks.

        C	 Effectively communicate why the estimate for the size of the spill,
           initially placed at 900,000 gallons based on a best guess estimate,
           was reduced to 50,000
           gallons after performing
           calculations on some          A University of Texas study,
           limited records.              Communicating about
                                           Environmental Risk with
        C	 Ensure that the                 Stakeholders, reached the following
           numbers in the                  conclusions after conducting focus
                                           groups in several communities near
           Pollution Reports
                                           gasoline stations:
           prepared by EPA’s
           On-Scene Coordinator            •	 Most people want to be informed
           were accurate.                     about a potential chemical-
                                              release problem even before there
                                              is a known problem (as soon as
        C	 Initially involve the              the sampling phase of
           community regarding                investigation begins).
           the type of carbon              •	 Overwhelmingly, people want to
           filters that would be              be informed through face-to-face
                                              meetings. Their second choice is
           installed in their homes
                                              written materials.
           (various options were           •	 People . . . want access to as much
           available).                        information as possible, they
                                              want to know how to compare
        C	 Effectively explain the            their situation with other similar
           meaning of the various             ones, and they want to have their



                                      9

                                                            Report No. 2001-P-00015
   action levels (32, 21.5, and 8.3 mg/m3), as well as other technical
   information.

EPA should have foreseen concerns and potential fears in the

community, knowing that the residents were aware that: (1) EPA was

in the area performing a cleanup; and (2) EPA came into their homes

(or their neighbors’ homes) and performed sampling. These concerns

and fears may have been allayed if EPA had communicated with them

better. Having the community’s trust and support greatly helps

diminish the chances a community will oppose an agency’s action. 

EPA officials, in hindsight, acknowledged they should have

communicated better with residents. 


If EPA had used the report Improving Dialogue with Communities:

A Risk Communication Manual for Government, which had been

prepared for the New

Jersey Department of

Environmental Protection,
     Some agency representatives feel
many of the problems at        that the best interaction with the
the Tranguch site could        public is no interaction. They
have been avoided. EPA         fervently hope that the risk
                               communication techniques will
would have better known        make the public go away and leave
to account for intense         the agency to make decisions in
citizen concerns and seek      peace. However, there is a strong
to build trust with the        consensus among experienced
community by informing it      practitioners that the solution to the
                               problems described is more, rather
about the spill and
                               than less, interaction.
involving the community in
the decision making. This        Improving Dialogue with
                                 Communities: A Risk
has worked well for the
                                 Communication Manual for
New York Department of           Government
Health as well as the New
Jersey Department of
Environmental Protection.

Communication with PADOH

Although EPA believed the involvement of PADOH was not necessary
in 1996, we think communication with PADOH would have been
beneficial. EPA had knowledge that a potential health threat existed
in 1996, and had even written in a 1996 Pollution Report that,
potentially, “the gasoline poses an imminent and substantial threat to
the public health of the residents . . . .” PADOH officials indicated
they should have been involved, stating that a health agency should be

                             10

                                                  Report No. 2001-P-00015
        called in to assess a situation and decide from a health perspective
        whether any risks exist. EPA officials agreed that health officials from
        either the state or federal level should have been involved at some
        point.

        Further, the inadequate communication helped result in the revision
        of the action level for benzene at Tranguch to the excessively
        conservative 8.3 Fg/m3. When PADOH had made the recommendation
        for the 8.3 Fg/m3 action level, EPA was caught off guard, stating that
        PADOH never consulted them about this change. Up to this point,
        EPA had relied on PADOH recommendations for setting action levels,
        and believed there was a need to continue to do so. If EPA had
        maintained more effective communication with PADOH, perhaps they
        would have known of PADOH’s recommendation far enough in
        advance so that they could have discussed not making the change to
        8.3 Fg/m3. However, because EPA allowed the lines of communication
        to slip, they had little recourse but to follow the recommendation of 8.3
        Fg/m3.

Unnecessary Remediation Actions May Have Been Taken
        It appears inappropriate that homes are being remediated to 8.3 Fg/m3
        at this site while at any other site in the country, including those in
        Pennsylvania, EPA would only remediate to 21.5 Fg/m3. The
        conservative sampling level resulted in the following actions that we
        believe may have been excessive:

        C	 Placing sewer vent traps in all homes. In our opinion, sewer
           vent traps are only justified in homes with readings over EPA’s
           action level of 21.5 Fg/m3 or Pennsylvania’s level of 32 Fg/m3. If
           these levels had been used, EPA would have only installed between
           10 and 20 sewer vent traps, as opposed to more than 360. We
           consider the decision to install vents in homes below the 21.5 Fg/m3
           level to be questionable. The cost for sewer vents at homes below
           the 21.5 Fg/m3 action level totaled approximately $850,000.
                                                                              3
        C	 Followup sampling in homes with levels below 21.5 Fg/m       F      .
           Even though EPA’s normal protocol is to wait for odor complaints
           before taking air samples, we agree that sampling all the homes in
           the area was a reasonable and proactive step. However, using the
           overly conservative action level of 8.3 Fg/m3 as the criterion for
           followup air sampling resulted in increased costs of about $200,000.



                                     11

                                                          Report No. 2001-P-00015
                                                                 3
        C	 Remediation in homes with levels below 21.5 Fg/m  F    . The
           questionable remediation in homes with levels below 21.5 Fg/m3
           will cost approximately $1.7 million.

        In conclusion, if EPA had communicated more effectively with
        residents and PADOH, as much as $2.8 million in potentially excessive
        expenditures may have been avoided.

Recommendations
        We recommend that the Region III Administrator take the following
        actions to ensure better communication with the public at future sites:

        1. 	 Provide all On-Scene Coordinators and their managers with
             additional training in risk communication.

        2. 	 Develop a risk communication reference guide or adapt an existing
             guide to their needs.

Region III Response
        Region III officials stated they were pleased with the overall OIG
        conclusion that the Region’s remediation efforts were sufficient to
        ensure the safety of residents. The Region acknowledged that their
        early communication efforts with residents were insufficient, and has
        taken a number of steps in the past six months, subsequent to our
        initial comments, to improve communication.

        Despite the general agreement with our draft report, there were a few
        points of disagreement:

        C	 The Region thinks that improved communications with PADOH
           would not have avoided the PADOH shift in the benzene action
           level to 8.3 Fg/m3. The Region contends they had regular
           communications with PADOH, and the shift in the benzene
           standard should be recognized as a reaction to deal with intense
           public pressure and criticism.

        C	 The Region contends that the additional costs predicted in the
           audit for in-home remediation systems ($1.7 million estimated) are
           not materializing due to EPA’s extensive efforts to screen for
           household sources of benzene.


                                    12

                                                         Report No. 2001-P-00015
        Regarding Recommendation 1, the Region stated it will place more
        emphasis on communication in the training currently provided to
        On-Scene Coordinators. Regarding Recommendation 2, the Region
        stated it will consider adapting an existing EPA communication guide,
        developed in August 2000 for classic emergency responses, to satisfy
        the recommendation.

OIG Evaluation
        Region III generally agreed with our conclusions and the general need
        to better communicate with residents when implementing future
        remediation efforts. We consider Region III’s planned actions to
        provide increased risk management training and develop a risk
        communication reference guide to be appropriate, pending our review
        of the guide prior to its implementation.

        The Region agreed with most of the specific points we raised in our
        report. Regarding the few points of disagreement:

        C	 We did not claim that improved communications with PADOH
           would have avoided the benzene action level shift to 8.3 Fg/m3 –
           we only stated it was a possibility. We do not think it really
           matters whether the change to 8.3 Fg/m3 was a result of poor
           communication (as we contend) or a reaction to deal with intense
           public pressure (as the Region contends) – the change took place
           and was inappropriate.

        C	 We do agree that the $1.7 million in costs from unnecessary
           remediation in the homes may not have materialized at this time.
           The $1.7 million was only an estimate; only after all the in-home
           remediation efforts are completed will there be an accurate
           number.




                                    13

                                                        Report No. 2001-P-00015
                      Other Matters

        In addition to the issues already discussed, we looked into numerous
        other concerns of the complainant, Group Against Gas, and staffers for
        Pennsylvania’s two U.S. Senators. Some of these issues are discussed
        below.


No Inappropriate EPA Discharge Into Sewer System
        There was an allegation of inappropriate discharges into the local
        sewer system. However, according to the Greater Hazleton Sewer
        Authority, their engineer contractor, and all the applicable
        documentation that we reviewed, EPA had never placed any
        inappropriate discharges into the Greater Hazleton Sewer Authority’s
        conveyance and treatment facility.

“Point-in-Time” Test Sampling Was Appropriate
        There was concern that the sampling done by EPA was flawed because
        it was “point-in-time” test data. One of EPA’s main sampling
        instruments were “SUMMA” canisters, which are used to sample air in
        a home over an 8-hour period. EPA contends this method has the
        highest confidence level of any air sampling method available. In
        addition, EPA knew of no continuous monitoring devices that could
        have been placed in each home that would have provided the same low
        level of detection required. Because EPA had chosen to take action on
        the basis of very conservative action levels, the SUMMA canisters
        were the most appropriate sampling instruments to use. Our
        engineering staff confirmed the validity and appropriateness of EPA’s
        test procedures.

State Provided With Enough EPA Information
        There was an allegation that EPA had not provided enough data for
        PADOH to analyze.

        EPA stated, and PADOH confirmed, that EPA had been collecting
        indoor air samples at the frequency and quantity requested by PADOH
        for the determination of remediation recommendations. Both EPA and
        PADOH explained that the statement that there was not enough data
        only related to research data nationwide on the direct human health

                                   15
                                                        Report No. 2001-P-00015
        effects of benzene. Scientific studies where humans might be exposed
        to benzene in a controlled manner and then observed for health effects
        were not available.

        Our engineering staff believed the expectations of the complainant
        were unrealistic. Except for long-term studies in which test animals
        were subjected to very low doses of benzene over their lifetime, there
        were no realistic means to determine the amount of risk, if any, to
        which residents were exposed. The concentrations of benzene to which
        some residents may be exposed were at the limit of measurement of
        the most sophisticated testing available.

Response to Odor Complaints Was Appropriate
        The complainant asserted that it was wrong for EPA to respond only to
        gasoline odor complaints. The complaint pointed out that the odor
        threshold for benzene is much higher than the danger level; thus, you
        may not smell benzene while being unsafely exposed to it.

        EPA explained that the standard methodology for investigation of a
        gasoline spill is to respond to odor complaints in homes nearby and
        perform an investigation with a hand-held, direct reading instrument
        that detects the presence of gasoline chemicals. According to our
        engineering staff, EPA’s standard methodology to investigate in
        response to odor complaints, rather than testing homes that had no
        complaints, is logical.

        Despite this standard methodology, in January 2001, in an effort to be
        more proactive, EPA started to test all homes within the site area with
        SUMMA canisters and not just those where there were odor
        complaints.

“Tranguch” Was Not a Misleading Name for Cleanup Site
        The complainant asserted that “Tranguch” was an intentionally
        misleading name for the spill site, since other parties were also
        responsible. According to the complainant, people who lived near
        those unnamed responsible parties would not know they lived in a
        potentially dangerous area.

        EPA contended that in 1996, when the Pennsylvania Department of
        Environmental Protection requested their assistance at Tranguch, the
        State had referred to the site as the “Tranguch Site.” Thus, for

                                    16
                                                         Report No. 2001-P-00015
        consistency’s sake, EPA adopted the name Tranguch Gasoline Site,
        even though there were three other facilities in addition to Tranguch
        that contributed to the spill. Regardless of the site’s name, EPA
        determined the site boundaries based on contamination from all
        potential contributors. Therefore, residents should have known
        whether they lived within the boundaries of a gasoline spill.

Other Responsible Parties Pursued
        The complainant asserted that other “politically connected” responsible
        parties were not named or pursued along with Tranguch.

        As noted, EPA found that three other facilities in addition to
        Tranguch, contributed to the gasoline spill. They were Orloski’s Shell
        (now Choice, owned by UniMart); Sam’s Amoco (tanks and pipelines
        owned by Pipeline Petroleum); and Hazleton Standard Oil. These
        facilities were investigated in 1996 by EPA and found to have leaks at
        that time. The Pennsylvania Department of Environmental Protection
        had focused on Tranguch because, in their opinion, it had contributed
        the most to the spill.

        We reviewed Region III’s responsible party records and found EPA had
        pursued the other three responsible parties as well as Tranguch. We
        found that Tranguch was bankrupt. According to EPA personnel, EPA
        had offered Administrative Consent Orders to the other responsible
        parties, but none had agreed to participate in the cleanup. EPA had
        subsequently decided not to pursue Unilateral Administrative Orders
        because staff were still in the process of gathering evidence of who was
        actually responsible for the spill, and at the time it appeared that the
        other responsible parties might be “de minimis” (minimal) contributors
        to the contamination. Thus, the Tranguch project became a
        “government lead,” meaning that the government would pay for the
        cleanup and then seek cost recovery from the responsible parties. EPA
        contended these decisions were not politically influenced, and we
        found no evidence to the contrary.




                                    17

                                                         Report No. 2001-P-00015
APPENDIX 1 - REGION III RESPONSE





               19

                               Report No. 2001-P-00015
               UNITED STATES ENVIRONMENTAL PROTECTION AGENCY

                                 REGION III

                              1650 Arch Street

                   Philadelphia, Pennsylvania 19103-2029


                                                                                          AUG 14, 2001

SUBJECT:	 Draft Report - EPA Region’s Management of
          Tranguch Gasoline Site, Hazleton, PA
          Assignment #2001-000533

FROM:          Thomas C. Voltaggio
               Acting Regional Administrator (3RA00)

TO:	           Carl A. Jannetti
               Divisional Inspector General for Audit
               Mid-Atlantic Division (3AI00)


        Thank you for the opportunity to review and comment on your draft report regarding
EPA Region III’s management of the Tranguch Spill site. We are pleased with your overall
conclusion that the Region’s remediation efforts have been adequate and sufficient to ensure the
safety of residents. We also acknowledge that our early communication efforts with residents
were insufficient. As you are well aware we have taken a number of steps in the past 6 months to
improve our communications.

      Outlined below per your request are our comments on the report’s specific findings and
recommendations.

Findings

A) Homes Sampled in 1996 Representative of Spill Area (page 6)

               - We agree with the OIG’s conclusion that the homes sampled in 1996 were
               representative of the site area.

B) EPA Decisions on Remediation Actions Sufficient (pages 7-8)

               - We agree with the OIG’s opinion that given the benzene data available in 1996
               that a decision at that time not to remediate in the homes was appropriate;

               - We agree with the OIG’s opinion that the revised benzene action level of 8.3
               ug/m3 as established by the PA Department of Health (PADOH) for Tranguch is
               not consistent with the PADOH action level for benzene used elsewhere in
               Pennsylvania. Furthermore we agree that the level is so low that it is in the range
               of benzene levels routinely found as background in homes in Pennsylvania and
               across the United States.


       Printed on 100% recycled/recyclable paper with 100% post-consumer fiber and process chlorine free.
                                 Customer Service Hotline: 1-800-438-2474
             - We agree with the OIG’s position that a screening of homes for internal sources
             of benzene is appropriate before further remediation in the home (i.e., an air filter)
             is performed.

C) Federal Buyout Not Warranted (page 7)

             - We agree with the OIG’s opinion that buyouts are not warranted based on the
             health risks in the community. We also agree that in many cases residents are
             seeking a buyout because of a misunderstanding over the risks posed by the spill.

D) EPA Should Have Communicated Better (pages 8-11)

             - We agree that overall our communications with the residents have not been as
             effective as they needed to be, and that as a consequence a general mistrust has
             developed which has hampered our response.

             - We disagree that we did not communicate with residents and the community
             early on about the potential health risks. We also believe that we communicated
             with the community regarding the change in the estimate of the spill size. We
             would however, acknowledge that our efforts in those regards generally proved
             ineffective.

             - We agree that PADOH involvement in 1996 may have been appropriate from a
             coordination perspective but we emphasize that from a remediation decision-
             making standpoint it did not matter as the benzene action level (21.5ug/m3) used
             by EPA was more conservative than the statewide standard (32ug/m3) used by
             PADOH.

             - We disagree with the suggestion that improved communications in late 2000 -
             early 2001 with PADOH could have avoided the PADOH shift in the benzene
             action level to 8.3ug/m3. During this period we had regular communications with
             PADOH, sometimes daily, regarding site conditions and citizen health concerns.
             The shift in the benzene standard should be recognized for what it was - a reaction
             to deal with the intense public pressure and criticism that the 32ug/m3 cleanup level
             was insufficient to protect public health.

             - We agree that EPA had little recourse but to implement actions to meet the new
             PADOH recommendation of 8.3ug/m3 but we disagree that doing so resulted
             because the lines of communication had slipped. Rather EPA decided to
             implement the recommendation because of our previous publicly stated
             commitment to the community; that we would implement measures to protect
             public health based on the recommendations of the lead health agency, PADOH.
             Furthermore, it should be noted that EPA did seek advice from ATSDR evaluating
             the cleanup action level after PADOH lowered the level to 8.3ug/m3. ATSDR in
             their April 17, 2001 Health Consultation supported the 8.3ug/m3 standard saying it
             would be protective of public health.
E) Unnecessary Remediation Actions May Have Been Taken (pages 11-12)

             - We agree that some additional costs have been incurred by using the more
             stringent benzene action level of 8.3mg/m3 although we should note that even
             before the PADOH recommended action level was lowered to 8.3ug/m3, EPA had
             committed to provide each home with a sewer vent trap. That commitment was
             based on the initial PADOH health consultation. Furthermore, while increased air
             sampling costs will result because of the 8.3 ug/m3 action level, the additional costs
             predicted in the audit for in-home remediation systems ($1.7M estimated) are not
             materializing at this time due to EPA’s extensive efforts to screen for household
             sources of benzene.

             - The report leaves a perception that all of the additional sewer work announced
             in late May 2001 is not based on technical merit. We disagree with such a
             suggestion. We would acknowledge that further investigations as originally
             planned could have helped EPA better define additional sewer locations.
             However, the reality is that the time to complete those studies would have pushed
             the actual remediation past the current construction season, likely resulting in cost
             escalation. Ultimately additional sewer work was expected; we had even outlined
             such in our February 27, 2001 Response and Cleanup Plan. Furthermore, we had
             already been investigating the groundwater conditions for over 3 years and the
             incremental increase in information from further investigations may have only
             marginally modified (decreased) the scope of the additional sewer work. Given the
             Agency’s responsibility to protect public health and the environment, we
             determined that it was prudent to act sooner on the additional sewer replacement
             work.

Recommendations

1)	   All of the Region III OSCs and their managers receive formal and informal (primarily on-
      the-job) training during their careers on communications and risk management. However,
      given our experiences with the Tranguch site, we would agree that additional training
      focusing on risk communications would be appropriate and valuable. In particular we see
      a need to especially focus on those situations where our investigations and response
      actions take us directly into the houses of a multi-home community.

2)	   We would agree that a reference guide on risk communications would also be appropriate
      and we will consider the adaption of an existing communication guide developed in
      August 2000 for classic emergency responses. That guide outlines a structure, roles and
      responsibilities for communicating with the public, media and elected officials during an
      emergency incident.
                       APPENDIX 2 - DISTRIBUTION

EPA HEADQUARTERS

Assistant Administrator for Solid Waste and Emergency Response (5101)
Associate Administrator for Congressional and Intergovernmental
 Relations (1301A)
Associate Administrator for Communications, Education, and Media
 Relations (1101A)
Director, Office of Regional Operations (1108A)
Comptroller (2731A)
Agency Followup Official (2710A)
Agency Audit Followup Coordinator (2724A)
Office of Inspector General (2410)

EPA REGION III

Regional Administrator (3RA00)

Assistant Regional Administrator, Office of Policy and Management (3PM00)

Director, Hazardous Site Cleanup Division (3HS00)

Director, Office of Communications and Government Relations (3CG00)

Chief, Grants and Audit Management Branch (3PM70)

Region III Library (3PM50)





                                       25

                                                          Report No. 2001-P-00015
